       While we found no significant issues at Dry Tortugas regarding the project we reviewed,
we will continue to provide oversight of Recovery Act projects as they progress to completion
and closeout and may review this or other projects at the Park in the future.

       We appreciate the time the NPS provided in our review. We do not require a response to
this memorandum, but we will post it on our website (www.doioig.gov) and Recovery.gov.
Information contained in this advisory may also be included in our semi-annual reports to
Congress. Please feel free to contact me if you have any questions.



cc: 	   Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Acting Assistant Secretary – Policy, Management, and Budget
        Director, Office of Financial Management
        Bureau Procurement Chief, National Park Service
        Chief, Contracting Services Division – Denver Service Center
        Superintendent, Everglades and Dry Tortugas National Park
        Bureau Recovery Coordinator, National Park Service
        Contracting Officer, Denver Service Center




                                                                                             2
          



                                                     


                      Report Fraud, Waste, and 
  
                         
                          Mismanagement

                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :           24‐Hour Toll Free	                800‐424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                            
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:	        www. doioig.gov/hotline
               




                                                                                             
